           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  CLAIMANT REPRESENTATIVE FEES PAID
    BUT NOT WITHHELD FROM TITLE II
          PAST-DUE BENEFITS

     October 2012    A-04-11-11102




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      October 5, 2012                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Claimant Representative Fees Paid but Not Withheld from Title II Past-Due Benefits
           (A-04-11-11102)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           withheld Title II representative fee payments from claimants’ retroactive (past-due)
           benefits.

           BACKGROUND
           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
           under Title II of the Social Security Act (Act), as amended. To assist with obtaining
           Title II benefits, claimants may appoint a qualified representative (attorneys or
           non-attorneys) to act on their behalf in matters before SSA. Claimants may agree to
           compensate their representative for services provided to resolve the claim.

           Generally, SSA calculates claimants’ representative fees based on past-due benefits.
           Past-due benefits typically accrue from the claimant’s benefit entitlement date through
           the month in which SSA certifies the claim for payment. For example, a claimant
           applied for Title II disability payments on January 1, 2010, and SSA processed the final
           actions to pay benefits on July 31, 2010. SSA determined the claimant became entitled
           to benefits beginning February 2010—the month after the claimant applied for Title II
           disability benefits. As such, the claimant accrued 6 months of past-due benefits from
           February through July 2010. The representative fee is based on the 6 months of past-
           due benefits.
Page 2 - The Commissioner


A representative who wants to charge or collect a fee for services provided in any SSA
proceeding must generally first obtain SSA’s approval. 1 To obtain approval, a
representative must submit to SSA either a fee agreement or a fee petition. 2 For both
the fee agreement and fee petition processes, SSA determines the maximum fee a
representative may charge for services. Under a fee agreement, the maximum fee is
the lesser of $6,000 or 25 percent of past-due benefits. 3 Under a fee petition, the
maximum fee is a “reasonable fee” determined by SSA. 4 The “reasonable fee” is based
on several factors 5 and, unlike a fee agreement, is not limited to $6,000. 6

A claimant’s representative may also be eligible for direct payment. That is, SSA will
withhold the representative’s fee from the claimant’s benefits and issue payment directly
to the representative. 7 For all of the fees we sampled, SSA paid the representative fee
directly to the claimant’s representative. To account for representative fees due, SSA
staff manually records on the beneficiary’s payment record the amount of representative
fees to be withheld from the past-due benefit payment. If the amount of the fees is not
recorded, SSA may not withhold the representatives’ fees from the past-due benefits.

For the 3-year period October 1, 2007 to September 30, 2010, we identified
70,049 representative fee payments that lacked evidence of the manual action(s)
necessary to prompt SSA systems to withhold the representative fees from the
beneficiaries’ past-due benefits. We sampled 250 of the 70,049 representative fees for
our audit tests.

Further information regarding our scope and methodology and our sampling
methodology and test results is in Appendices B and C, respectively.
1
  In certain situations, SSA is not required to authorize representatives’ fees. In general, SSA is not
required to authorize fees when the claimant is relieved of all liability to pay the fee. For example, when
the fee is waived or settled through a nonprofit organization or paid by a third party and certain conditions
are met. SSA, POMS, GN 03920.010 A and B (September 30, 2011; see also prior versions of this
policy).
2
    SSA, POMS, GN 03920.001 A. (August 31, 2009).
3
 SSA, POMS, GN 03940.003 A.3. (September 30, 2011). Effective February 1, 2002 the limit was
$5,300. Effective June 22, 2009, the limit was increased to $6,000.
4
    SSA, POMS, GN 03920.001 B.1. (August 31, 2009).
5
 A “reasonable fee” is based on such factors as the complexity of the case, extent and type of services
provided, level of skill and competence required in providing services, time spent on the case, and results
achieved. SSA, POMS, GN 03930.010 A (February 28, 2005).
6
 SSA, POMS, GN 03930.015 D (June 9, 2006; May 20, 2009; January 20, 2010; and
December 14, 2011) and GN 03920.015 A.1.a and B (January 28, 2010).
7
  To recover the administrative costs of issuing direct payments, SSA charges a user fee against the
representative fee. The user fee is the lower of a flat fee or a percentage applied to the total
representative fee. Effective December 1, 2008, the flat rate was $83 and the percent rate was
6.3 percent. The previous user rate (effective December 1, 2007) applied a $79 flat rate or a 6.3 percent
rate. SSA, POMS, GN 03920.019 A (January 26, 2012).
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA did not always withhold representative fees from beneficiaries’ past-due benefits.
As such, SSA overpaid beneficiaries by the amount of the representative fees paid. For
26 (10.4 percent) of the 250 sampled representative payments tested, SSA did not
withhold the attorney fees, totaling $74,965, from the beneficiary’s past-due benefits.
We projected our sample results to the population and estimated SSA did not withhold
7,285 representative fee payments, totaling $21 million, from the beneficiaries’ past-due
benefits. See Appendix C for our sampling methodology and test results.

PAYMENT ERRORS
SSA paid representative fees but did not withhold the fees from beneficiaries’ past-due
benefits. As such, SSA overpaid beneficiaries. For 26 (10.4 percent) of the
250 sampled representative payments tested, SSA did not withhold fees totaling
$74,965 from the beneficiary’s past-due benefits. The fees ranged from $78 to $5,707;
the average was $2,883. We projected our sample results to the population and
estimated SSA did not withhold 7,285 representative fee payments, totaling $21 million,
from the beneficiaries’ past-due benefits.

The payment errors occurred because SSA did not take the necessary manual action(s)
on the beneficiary’s Title II record 8 to prompt SSA’s systems to withhold the
representative fee from the beneficiary’s past-due benefit payment. Because of the
time that had elapsed since SSA paid these representative fees, we did not ask the
Agency to provide specific reasons why staff did not take the necessary manual
action(s) for each error case. However, given that this is a manual process, we believe
most of these errors resulted from oversight.

In 14 of our 26 error cases, SSA paid the representative fees before it paid the past-due
benefits. For example, in one case, a claimant filed for disability benefits in
November 2005, and SSA issued a favorable decision in May 2008. SSA paid the
$5,300 representative fee in May 2008. However, the Agency did not pay the
beneficiary’s past-due benefits, which totaled $22,294, (from November 2005 through
May 2008) until January 2009. When Agency staff processed the transaction to pay
these past-due benefits, the employee did not reduce the amount to account for the
representative fee already paid. As such, a $5,300 overpayment occurred. We
understand that in cases involving fee agreements, SSA may routinely pay
representative fees before paying past-due benefits. To ensure paid representative



8
 SSA establishes a Master Beneficiary Record (MBR) for each Title II disability insurance claimant. The
MBR maintains pertinent information needed to accurately pay benefits to the claimant and all entitled
dependents. The information maintained includes identification data (name, Social Security number, date
of birth, address); earnings history, type and date of disability, and monthly Disability Insurance benefit
amounts. The MBR also includes information regarding attorney and non-attorney representation and
related fees.
Page 4 - The Commissioner


fees are withheld from past-due benefits, staff should always ensure the claimant’s
Title II record contains evidence of the manual action(s) needed to prompt SSA’s
systems to withhold the fee.

We also found that in 6 of the 26 error cases, SSA paid the representative fee 300 or
more days after it paid the past-due benefits. According to an SSA official, cases
involving a fee petition may be paid considerably later than the past-due benefits
because SSA must determine the amount of the representative fee. For example, in
one case, a claimant filed for disability benefits in January 2004, and SSA issued a
favorable decision in November 2006. SSA paid the entire amount of the beneficiary’s
past-due benefits, which totaled $16,297, in March 2007. However, the Agency did not
pay the $4,050 representative fee until July 2009. Because SSA staff did not withhold
this amount from the past-due benefits, a $4,050 overpayment occurred.

In these situations, we believe it is imperative that staff processing the past-due
payment ensures the representative fee payment is withheld before it releases the past-
due benefits.

During our audit, we informed SSA of the 26 overpayment errors. SSA agreed with our
overpayment calculations and posted the overpayments to all 26 beneficiaries’ records.

CONCLUSION AND RECOMMENDATIONS
SSA did not always withhold representative fees from the payment of past-due Disability
Insurance benefits. As such, SSA overpaid beneficiaries. The payment errors occurred
because SSA staff did not take action(s) on the beneficiaries’ Title II records to prompt
SSA’s systems to withhold the representative fee from the beneficiary’s past-due benefit
payment.

Accordingly, we recommend SSA:

1. Issue a reminder to staff processing Title II disability claims involving representative
   fee payments to take the necessary action(s), on the beneficiary’s Title II record, to
   prompt SSA’s system to withhold the representative fee from the past-due benefit
   payment.

2. Periodically assess Title II disability claims, with the characteristics identified in this
   audit, to ensure overpayments did not occur.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our first recommendation and disagreed with the second. Regarding
the second recommendation, SSA stated it reviews initial Title II claims involving
representative fee payments during its Transaction Accuracy Reviews and reports the
Page 5 - The Commissioner


findings from these reviews in a year-end report. SSA also stated that in August 2008,
it completed a targeted analysis report on Disability Insurance payments, which
included an analysis of representative fee payment errors.

Although SSA reviews Disability Insurance claims involving representative fee
payments as part of its Transaction Accuracy Reviews, the last targeted review of these
types of cases was over 4 years ago. Further, despite this review, our audit found that
representative payment errors occurred in about 10 percent of the cases we tested.
Accordingly, we believe SSA should reconsider its response to the second
recommendation and implement procedures to more frequently review Disability
Insurance payments with the specific characteristics we identified in this report.

See Appendix D for the full text of SSA’s comments.




                                     Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Test Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
Act     Social Security Act
MBR     Master Beneficiary Record
OASDI   Old-Age, Survivors and Disability Insurance
OIG     Office of the Inspector General
PHUS    Payment History Update System
POMS    Program Operations Manual System
SSA     Social Security Administration
                                                                      Appendix B

Scope and Methodology
For the 3-year period October 1, 2007 to September 30, 2010, we identified
70,049 representative fee payments that lacked evidence of the manual action(s)
necessary to prompt the Social Security Administration’s (SSA) systems to withhold the
representative fees from the beneficiaries’ past-due benefits. We sampled 250 of the
70,049 representative fees for our audit tests.

To accomplish our objective, we:

•   Queried and reviewed attorney fee information from SSA’s

          Master Beneficiary Record,
          Payment History Update System (PHUS),
          Single Payment System, and
          Recovery of Overpayments, Accounting and Reporting system.

•   Interviewed SSA personnel to obtain an understanding of how SSA pays
    representative fees.

•   Reviewed applicable SSA policies and procedures that control payment of attorney
    fees.

•   Reviewed previous Office of the Inspector General reports pertaining to attorney
    fees.

For our error cases, we provided SSA with our detailed calculations for its review and
comments.

We determined the computer-processed data from the PHUS used to select our
population were sufficiently reliable for our intended use. We conducted tests to
determine the completeness and accuracy of the data and achieve our audit objective.

We performed our audit work in Atlanta, Georgia, between March and May 2012. The
entity reviewed was the Office of the Deputy Commissioner of Operations, Office of
Public Service and Operations Support. We conducted our audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
                                                                        Appendix C

Sampling Methodology and Test Results
SAMPLING METHODOLOGY

For the 3-year period October 1, 2007 to September 30, 2010, we identified
70,049 representative fee payments that lacked evidence of the manual action(s)
prompting the Social Security Administration’s systems to withhold the representative
fees from the beneficiaries’ past-due benefits. We sampled 250 of the 70,049
representative fees for our audit tests. The following chart details our population and
sample selection.
                           Population and Sample Details
               Population:     Population:
                                              Sample                Sample
               Number of        Amount of
                                                Size                Dollars
                  Fees          Fees Paid
                 70,049       $277,079,150      250                 $997,680

SAMPLING AND TEST RESULTS

We projected our test results at the 90-percent confidence level. The following chart
details our test results and projections to the population.
                   Test Results and Projections to the Population
                  Projections of Attribute and Variable Appraisals
                           Attribute Appraisal Projections
      Population and Sample Data                                 Decisions
      Total Population                                                 70,049
      Sample Size                                                          250
      Representative Fees not Withheld from Past-due Benefits               26
      Projection to Population                                   Projections
      Point Estimate                                                     7,285
      Lower Limit                                                        5,180
      Upper Limit                                                        9,897
                           Variable Appraisal Projections
      Population and Sample Data                                 Dollars
      Total Population                                           $277,079,150
      Sample                                                         $997,680
      Representative Fees not Withheld from Past-due Benefits         $74,965
      Projection to Population                                   Projections
      Point Estimate                                              $21,005,047
      Lower Estimate                                              $12,989,137
      Upper Limit                                                 $29,020,957
      We made all projections at the 90-percent confidence level.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 14, 2012                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Claimant Representative Fees Paid but Not
           Withheld from Title II Past-Due Benefits” (A-04-11-11102)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CLAIMANT REPRESENTATIVE FEES PAID BUT NOT WITHHELD FROM TITLE
II PAST-DUE BENEFITS” (A-04-11-11102)


Recommendation 1

Issue a reminder to staff processing Title II disability claims involving representative fee
payments to take the necessary action(s), on the beneficiary’s Title II record, to prompt SSA’s
system to withhold the representative fee from the past-due benefit payment.

Response

We agree.

Recommendation 2

Periodically assess Title II disability claims, with the characteristics identified in this audit, to
ensure overpayments did not occur.

Response

We disagree. We currently review attorney and representative fees during our Title II
Transaction Accuracy Reviews (TAR). For any initial claims selected under TAR involving
representative fees, we review whether or not the representative fees were correctly withheld and
whether the amount of the representative fees is within Progam Operations Manual System
guidelines. We report our findings as part of our regular TAR end-of-year reports. In August
2008, we completed a targeted analysis report on Disability Insurance payment issues, which
included an analysis of attorney and representative fee errors.




                                                  D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Lisa M. Swanson, Senior Auditor

   Kenley Coward, IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-04-11-11102.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
